"Follow-up Audit of Improper Medicare Payments to Hospitals for Nonphysician Outpatient Services Under the Inpatient Prospective Payment System,"(A-01-00-00506)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of Improper Medicare Payments to Hospitals for Nonphysician Outpatient Services Under the Inpatient
Prospective Payment System," (A-01-00-00506)
July 31, 2001
Complete
Text of Report is available in PDF format (831 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Based on the results of previous audits, the Office of Inspector General (OIG) initiated a joint project with the Centers
for Medicare and Medicaid Services (CMS) and Department of Justice (DOJ) to recover duplicate payments made to hospitals
that had not complied with Medicare requirements regarding the diagnosis related group (DRG) payment window.  This
report, points out that the joint project, as of July 2000, had resulted in the collection of approximately $73 million
covering the period November 1990 through December 1996 from 2800 hospitals that had entered into settlement agreements
with DOJ. Since that time, duplicate payments have decreased significantly, but we did identify approximately $5 million
of potential duplicate payments for calendar years 1997 and 1998. We recommended to CMS financial adjustments, and additional
procedural refinements to identify and preclude further duplicate payments. The CMS generally concurred with our recommendations.